                             CLOSEOUT FOR M93070044




coniidentiality oi. peer review when, as an ad hoc reviewer, he misappropriated a "novel"




paper along with a copy of the complainant's first proposal in which he marked the allegedly
stolen research idea.


        The complainant explained that he received a telephone call from the subject who
identified himself as an ad hoc reviewer for one of his NSF proposals. The complainant said
that the subject asked him if he had published anything about the research idea presented in
the proposal he had reviewed. According to the complainant, the subject told him that, if the
complainant had published his results from the research idea, the subject, who had completed
a similar study, wanted to reference the complainant in a paper that he was about to publish.
The complainant said that he told the subject that he had not started the work associated with
this research idea.


       NSF's computerized award and proposal system showed that the subject had been an



                                                    --
complainant's first proposal for review.


       OIG focused on the complainant's first proposal because it was the subject's initial
exposure to the complainant's research idea from an NSF source. A comparison of the
complainant's first proposal and the subject's paper revealed that they were alike in that they
described a similar research idea, but that they were different in that they described dissimilar

                                           Page I of 2                                  M93-44
                            CLOSEOUT FOR M93070044
research approaches. OIG's review of the subject's proposals (including his proposal
submitted concurrently with the receipt of the complainant's first proposal) and publications
determined that he had been pursuing the same specific area of research for over ten years, a
research area that overlapped significantly with the complainant's. We noted that the subject
had been using the same experimental research approaches for the entire period, approaches
that were different from the complainant's.


        OIG determined that, following the subject's review of the complainant's first
proposal, there were no unexpected or unreasonable changes in the subject's research
direction or approach. Evidence suggested that the research idea presented in the subject's
paper was the logical progression of his ongoing research rather than the result of his having
reviewed the complainant's proposal. In addition, the evidence suggested that the subject may
have started work on part of the research related to the research idea before he received the
complainant's first proposal for review.


       OIG concluded that the similarity between the complainant's research idea and the
research work reported in the subject's paper was the consequgnce of two scientists working
in the same specific area of research, each developing the same idea independently. There
was no substance to the allegation that the subject, as a reviewer, had violated the
confidentiality of peer review by misappropriating a research idea from the complainant's
NSF proposal.


       This inquiry was closed and no further action will be taken.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                     Page 2 of 2
